           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Audit Announcement —FAA’s                      Date:    September 7, 2004
           Major Acquisitions
           Project No. 04A3016A000

  From:                                                              Reply to
           David A. Dobbs                                            Attn of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Ramesh Punwani
           Assistant Administrator for Financial
            Services/CFO, ABA-1

           The Federal Aviation Administration is requesting $2.5 billion to modernize the
           National Airspace System (NAS) for fiscal year (FY) 2005. Historically, a
           significant portion of FAA’s investment in air traffic control modernization is
           geared toward enhancing capacity and replacing aging equipment. FAA
           modernization projects have experienced considerable cost growth, schedule slips,
           and shortfalls in performance. FAA is requesting less for modernization than it
           did last year, and has cancelled or deferred several projects. At the same time
           demand for air travel is returning to pre-September 11th levels, and some airports
           are experiencing increasing delays. It is important that FAA keep the air traffic
           control modernization on track to help meet the demand for air travel.

           As part of our oversight role, we plan to develop an overall status report on FAA’s
           major acquisitions (such as satellite navigation, weather, and communications
           systems) to assist congressional and Agency decision makers. We prepared a
           similar analysis last year on 20 major air traffic control modernization projects.
           The objectives of the audit will be to update the cost and schedule of FAA’s major
           acquisitions, and identify key issues affecting their implementation.

           This audit is planned for FAA Headquarters and other locations as deemed
           necessary during our review. We plan to start this audit the week of September 7,
           2004. We will contact FAA’s audit liaison to arrange a formal entrance
conference. Kevin Dorsey is the Program Director for this audit. If you have any
questions or need additional information, please call me at (202) 366-0500 or Mr.
Dorsey at (202) 366-1518.

                                       #

cc: Federal Aviation Administrator, AOA-1
    FAA Deputy Administrator, ADA-1
    FAA Chief of Staff, AOA-2
    FAA Chief Operating Officer, ATO-1
    FAA Audit Liaison, ABU-100
    OST Audit Liaison, M-1
